No. _______
______________
In the Supreme Court of the United States
______________
DANIEL A. GROVER

Petitioner,
v.
OFFICE OF PERSONNEL MANAGEMENT,
Respondent.
_______________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
_________________
APPENDIX
Norman Jackman
Jackman & Roth LLP
7-2 Overbrook Hamlet Way
P.O. Box 1377
Lincoln, New Hampshire 03251
617-682-8049

norman.jackman@gmail.com
September 16, 2019

TABLE OF CONTENTS
Page
MSPB DECISION, DATED APRIL 26, 2018 ... Appx1
FEDERAL CIRCUIT, DECISION, DATED
APRIL 24, 2019 ............................................... Appx15
AWARD LETTER TO APPELLANT .............. Appx22
APPELLANT’S POSITION DESCRIPTION . Appx23

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
CENTRAL REGIONAL OFFICE
DANIEL A. GROVER,
Appellant,

DOCKET NUMBER
CH-0831-13-2586-M-1

v.
OFFICE OF
PERSONNEL
MANAGEMENT,

DATE: April 26, 2018

Agency.
Karla W. Yeakle, Washington, D.C.,
for the agency.
Tiffany Slade, Washington, D.C.,
for the agency.
BEFORE
Michele Szary Schroeder
Chief Administrative Judge
INITIAL DECISION
INTRODUCTION
The Appellant, Daniel A. Grover, filed an
appeal on August 19, 2013, alleging the Office of
Personnel Management (OPM) incorrectly

APPX1

2
calculated his civil service retirement annuity and
failed to issue him a final decision. The appeal was
initially dismissed for lack of jurisdiction, but was
then remanded by the Board for further
adjudication on March 7, 2014. On remand, the
Appellant withdrew his request for a hearing and
an initial decision was issued on the record,
affirming OPM’s decision. The Appellant appealed
the decision to the Board, who affirmed the remand
initial decision.
The Appellant then appealed the Board’s
decision to the Federal Circuit. On July 15, 2016,
the Federal Circuit vacated the Board’s decision
and remanded the matter to the Board for a
definitive calculation concerning the amount of
overtime paid to the appellant. Remand File (RF),
Tab 1, pp.2-3. After the mandate issued, the Board
issued an order directing the parties to submit
additional evidence pertaining to the Appellant’s
overtime wages that were pertinent to his
retirement calculations. RF Tab 5. Both parties
responded to the Order. RF Tabs 8, 9. On June 29,
2017, the Board remanded the matter to the
Central Regional Office for an administrative
judge to conduct further proceedings consistent
with the Federal Circuit’s July 15, 2105 decision.
RF, Tab 10. The Board has jurisdiction over this
appeal. See Ramirez v. Office of Personnel
Management, 114 M.S.P.R. 511, ¶ 7 (2010). This
decision is based on the written record.
For the reasons set forth below, OPM’s
decision is AFFIRMED.
APPX2

3
Analysis and Findings
Background
Historical Information
The Appellant is a former customs officer
who retired from the Department of Homeland
Security, Customs and Border Protection (CBP) on
August 2, 2008. For purposes of retirement, he was
covered by the Civil Service Retirement System
(CSRS). Annuities under CSRS are calculated
pursuant to the provisions of 5 U.S.C. § 8339(a).
By statute, the annuity must reflect the highest
average pay based on three consecutive years of
specified service, including overtime pay up to
$17,500 for customs officers.
Upon the Appellant’s retirement in 2008, the
National Finance Center (NFC) prepared and
certified his Individual Retirement Record (IRR),
upon which OPM relied in making its
determination concerning the Appellant’s average
pay. Based on multiple errors in its
calculations, OPM recalculated the Appellant’s
annuity several times. After receiving a decision
on September 18, 2009, the Appellant appealed the
decision to the Board. During processing of the
appeal filed in 2009, OPM rescinded the final
decision to address the Appellant’s concerns. As a
result of OPM’s action to rescind its final decision,
the assigned administrative judge dismissed the
appeal for a lack of Board jurisdiction on November
10, 2009. As neither party filed a petition for

APPX3

4
review, the decision became final on December 15,
2009 ( CH-0831-10-0006-I-1).
The Appellant filed a second Board appeal on
March 29, 2011. On the same day, the NFC
certified a corrected breakdown of the Appellant’s
premium conversion retirement deductions,
thereby resulting in a newly calculated average pay
figure and decision by OPM on September 20, 2011.
The assigned administrative judge dismissed the
appellant’s appeal for a lack of Board jurisdiction
on December 9, 2011, given that OPM had not
issued a reconsidered decision as requested by the
Appellant ( CH-0831-11-0458-I-1).
On September 10, 2012, OPM rescinded its
September 20, 2011 decision, finding the
Appellant’s annuity remained improperly
calculated. Specifically, OPM determined the
latest computation failed to account for the
Appellant’s coverage under the Customs Officers’
Pay Reform Act (COPRA), Public Law 103-66.
OPM averred that a new decision with
reconsideration rights would be forthcoming. On
May 31, 2013, the Appellant requested OPM take
action on the pending matter. After failing to
receive a response from OPM, the Appellant filed
an appeal with the Board on August 19, 2013. OPM
filed a Motion to Dismiss the appeal, asserting it
would be issuing a new initial decision, which it did
on October 2, 2013. The Appellant did not request
reconsideration of OPM’s October 2013 decision
and the appeal was dismissed for lack of

APPX4

5
jurisdiction by the assigned administrative judge
on December 2, 2013(CH-0831-13-2586-I-1).
After the December 2013 dismissal for lack
of jurisdiction, the Appellant filed a Petition for
Review with the Board. The Board found OPM’s
October 2, 2013 decision to be tantamount to a final
decision. As a result, the Board remanded the
matter back to the administrative judge for
adjudication on the merits. On remand, OPM
attempted to explain its October 2, 2013 decision to
the Appellant via a letter on April 3, 2014. The
administrative judge granted the Appellant’s
request for discovery in May 2014, which resulted
in OPM producing approximately 1500 pages of
documents. Despite the extensive number of
documents in the Appellant’s possession and his
knowledge of the burden he was required to meet,
the Appellant did not provide any additional
information to the administrative judge to
supplement or correct the information contained in
the relied-upon IRR. After reviewing the
information contained in the extensive record, the
assigned administrative judge issued an initial
decision affirming OPM’s decision. The Board
affirmed the initial decision (CH-0831-13-2586-B-1)
and the Appellant filed an appeal with the Federal
Circuit, resulting in this remand.
Current Proceeding
In its decision, the Federal Circuit noted that
“neither OPM nor the Board recognized that the
record was internally contradictory about what
overtime pay [the Appellant] received.” Grover v.
APPX5

6
Office of Personnel Management , 828 F.3d 1378,
1379 (Fed. Cir. 2016). OPM agreed there was
“internally conflicting information in the official
record used by OPM for its calculation.” Id. The
court noted the issue was whether the Appellant
actually received overtime pay of $17,500 from
2005-2008. Id. at 1381. Having found insufficient
evidence in the record to determine the issue at
hand, the court remanded the matter to resolve
what allowable overtime pay was received by the
appellant. Id. at 1384. According to the court, the
inclusion of pay statements could be dispositive to
this question, especially given the Appellant’s
counsel’s statement “that he believed the pay stubs
were in the record.”1 Id. at p. 1384.
I held a status conference with the parties in
September 2017. During the conference, I
discussed the documents the parties had filed in
response to the April 2017 Order. I also instructed
the parties to provide any additional documents
they wished me to consider by September 25, 2017
and to file closing arguments by September 29,
2017. RF, Tab 20. The record in this matter closed
on September 30, 2017. Neither party filed any
objections or additional documents after the status
conference. Id.

A review of the underlying record did not locate
any such pay statements in the record prior to the
Federal Circuit’s remand. However, OPM provided
pay statements in its response to the Board after
the court’s remand. RF, Tab 9, pp.25-36.
1

APPX6

7
Analysis
An appellant has the burden of proving by
preponderant evidence that he is entitled to the
retirement annuity benefits he seeks. 5 C.F.R. §
1201.56(b)(2); Cheeseman v. Office of Personnel
Management , 791 F.2d 138, 140-41 (Fed. Cir.
1980), cert. denied, 470 U.S. 1037, 107 S.Ct. 891
(1987); Sanderson v. Office of Personnel
Management, 72 M.S.P.R. 311, 317 (1996), aff ’d,
129 F.3d 134 (Fed. Cir. 1997) (Table), cert
denied, 522 U.S. 1115, 118 S.Ct. 1051 (1998).
Preponderant evidence is that degree of relevant
evidence which a reasonable person, considering
the record as a whole, would accept as sufficient to
find that a contested fact is more likely to be true
than untrue. 5 C.F.R. § 1201.4(q).
As noted throughout this case, payments of
money from the civil service retirement fund are
limited to those authorized by statute. See Office of
Personnel Management v. Richmond , 496 U.S.
414, 416, 434, 110 S.Ct. 2465, 2467, 2476-77 (1990).
There is no administrative discretion by OPM or
the Board to determine the requirements for
eligibility for a retirement benefit. See Allen v.
Office of Personnel Management , 77 M.S.P.R. 212
(1998); Andrada v. Office of Personnel Management
, 74 M.S.P.R. 226, 233 (1997).
There is no dispute concerning the
Appellant’s coverage under CSRS. Rather, the only
question is whether the Appellant actually received
the amount of overtime pay he claims, and whether
his annuity should be adjusted as a result. Grover,
APPX7

8
828 F.3d at 1381. If the Appellant did, in fact,
receive such pay, the statutory standard “provides
no room for ‘excluding from the calculation of
average salary or retirement annuity purposes any
pay, including overtime pay under COPRA, that is
actually received and is properly part of the
average salary computation.’” Id. at 1383.
The Appellant filed his W-2 forms for 2006
and 2007. RF, Tab 8, pp.10-11. These documents
reflect the Appellant received $126,150.36 in
2006 and $100,816.48 in 2007. Id. The Appellant
also submitted an IRR from OPM noting his base
pay for each year from 2006 through 2008, which
stated his “final salary” was $103,591. Id. at p.12.
The Appellant claims that, because only $17,500 in
overtime pay is allowable for retirement annuity
purposes, his 2006 salary should be reduced to
$106,464.2 Id. at p.4. Thus, according to the
Appellant, the average of his highest three
consecutive years of federal employment would be
$103,623.82.3 Id.
The Appellant reaches this figure by adding
$17,500 to $88,964, which he “accepts, for the
purpose of finally ending his nearly nine years of
trying to obtain the correct annuity from OPM” as
his average pay. RF, Tab 8, p. 4. However, this
amount is only an average and cannot be used to
determine the amount to be used for retirement
annuity calculations.
2

3 The Appellant reaches this figure by adding
$106,464 (2006), $100,816.48 (2007), and $103,591
(2008), and then dividing by 3.
APPX8

9
In response, the agency submitted various
documents, including the Appellant’s Statements
of Earnings and Leave (pay statements) for 2005
through 2008.4 RF, Tab 9, pp.33-36. The pay
statements reflect the Appellant received gross pay
of $90,595.90 in 2005, $128,820.60 in 2006,
$103,576.42 in 2007, and $80,993.81 in 2008. Id.
The gross pay received for both 2006 and 2007, as
noted by the pay statements, are slightly higher
than the W-2 income information submitted by the
Appellant for both years. Compare RF, Tab 8,
pp.10-11 with Tab 9, pp.34-35. According to the pay
statements, the Appellant’s gross pay included
regular pay, Sunday differential, night differential,
overtime, call back overtime, holiday pay,
relocation allowance, leave usage, and time off
awards. Id. Concerning overtime specifically, the
pay statements clearly indicate the Appellant
received $5,359.44 in 2005, $9,101.96 in 2006,
$3,799.96 in 2007, and $3,712.51 in 2008.5 Id. The
Appellant did not dispute the validity of these pay
statements, nor did he argue they were not the
final pay statements for the years in question.
Accordingly, despite the Appellant’s long-standing

Statements of Earnings and Leave are the official
title for the pay statements issued to Federal
employees.
4

5 These figures include the Appellant’s pay for “OT
Paid @ Double Rate,” “Call Back OT Double RT,”
and “Commute OT Triple Rate.” All three
categories are allowable overtime for purposes of
APPX9

10
claims, he did not reach the $17,500 statutory cap
in any of the years at issue, thereby explaining why
OPM did not include the full amount in its
determination of the Appellant’s high-three
average salary.
OPM submitted a declaration from Patrick
Foret, the Branch Chief for the Office of the Chief
Financial Officer at the NFC. RF, Tab 9, pp.11-14.
Although Mr. Foret explains he was not “directly
involved in the processing” of the Appellant’s
retirement case, he was able to review and verify
the accuracy of the Appellant’s IRRs. Id. Mr. Foret
stated the average salary used by CBP was
“significantly overstated because it includes pay
that is excluded from basic pay for retirement.” Id.
at p.12. Relying on the most recent NFC review of
the Appellant’s documents in April 2017, Mr. Foret
found no discrepancy “regarding COPRA overtime
for retirement contributions. In accordance with
regulations, COPRA overtime was included in the
calculation of [the Appellant’s] retirement
deductions and those deductions were correctly
included on the IRR submitted to OPM.” Id. at
p.13.
Specifically in reference to the Appellant’s
claims that his gross pay from his pay statements
should be used, Mr. Foret persuasively asserted
otherwise. Id. According to Mr. Foret, several types
of gross pay totals are:
calculating the Appellant’s retirement annuity.
See 19 C.F.R. §§ 24.16(b)(4), (5), (13).
APPX10

11
considered extra compensation or premium
pay for employees under COPRA and are not
base pay for retirement purposes. The most
significant excludable types of pay from [the
appellant’s] E&Ls [pay statements] include:
Sunday Differential, Night Differential,
Holiday Pay, and Relocation Allowance.
Those types of pay must be subtracted from
the [gross pay] in order to arrive at an
approximation of his retirement-eligible
[base pay.]
Id. Regulations support Mr. Foret’s assertions,
which omit premium pay differential (work on
holiday, Sundays, and at night) and relocation
allowances from inclusion in determining federal
retirement benefits. See 5 C.F.R. § 575.209(d)
(stating relocation incentive not included in
base pay, thereby removing from retirement
calculations); 19 C.F.R. § 24.16(b)(14) (explicitly
excluding premium pay differential from
retirement benefits calculations).
OPM produced spreadsheets calculating the
Appellant’s base pay for each year from 2005
through 2008 with information garnered from the
pay statements.6 RF, Tab 8, pp.25-32. The
An employee’s retirement annuity is calculated
based on their highest three years of consecutive
service. The period is not a calendar year (January
through December), but rather is based on the
employee’s retirement date. Given that the
Appellant retired midway through August 2008, his
annuity is calculated based on August 2005
6

APPX11

12
spreadsheets indicate a total of $89,664 that must
be excluded from the Appellant’s gross pay received
during the period August 2005 through August
2008 to reach a retirement annuity estimate based
on the type of pay received by the Appellant. Id. at
pp.13, 25-32. Specifically, the Appellant’s
statements reflect excluded pay in the amount of
$10,732.47 in 2005, $40,233.84 in 2006, $17,003.67
in 2007, and $21,693.70 in 2008. Id.
After removing the excluded categories, the
Appellant’s creditable salary for retirement
purposes is $79,868.43 for 2005, $88,586.89 for
2006, $85,941.11 for 2007, and $59,299.23 for 2008.
Id. at pp.25-32. OPM compared these amounts to
the salary calculated with its initial method of
using retirement deductions to calculate the
Appellant’s salary. The differences amounted to $5
in 2005, ($0.13) in 2006, $631.64 in 2007, and $0.88
in 2008, each of which was deemed immaterial to
the Appellant’s ultimate annuity calculation. Id.
Also, the retirement deductions used to calculate
the Appellant’s salary were the same on both the
IRR and the statements.
The Appellant offered no additional evidence
or argument beyond two years of W-2 forms.
However, use of the W-2 information for retirement
annuity calculation purposes is entirely
disingenuous. The W-2 form contains no
information concerning the types of pay underlying
through August 2008, thereby explaining the need
for all four years of pay statements.
APPX12

13
the yearly gross salary paid to the Appellant.
Rather, as noted by the Federal Circuit, the pay
statements are much more likely to be dispositive
in this regard, as the Appellant’s income is
categorized by pay type on the statements. This is
crucial because, as discussed above, various types
of income are not included when calculating pay for
federal retirement benefit purposes.
Mr. Foret’s declaration also addressed
apparent contradictory remarks contained on the
Appellant’s IRR in Column 8. Id. at p. 13; see RF
Tab 8, p. 12. He explained that the remark,
“$17,500 *COPRA/APS, PL 103-66, [. . .] is
systematically generated without regard to the
actual amount of COPRA earned within the year.”
RF, Tab 9, p. 13. Rather, “[t]he remark is reported
on the IRR to alert/inform OPM that COPRA
overtime is included in the calculation for
deductions. The actual amount of COPRA overtime
included for retirement- eligible base pay is a factor
of the employee deductions.” Id. Similarly, the
Appellant’s “final salary” listed in column 8 of the
Appellant’s IRR “pertains to life insurance, which
does not fall within the scope of [OPM’s]
responsibilities.” Id. at p. 14. Rather, the
information is gathered from the “Agency
Certification of Life Insurance Status.” Id.
Given the evidence submitted by OPM, as
well as the entirety of the underlying record, I find
no evidence to dispute the calculations made by
OPM. Contrary to the Appellant’s long-standing
assertions, there is no evidence in the record he
APPX13

14
worked sufficient overtime to meet the statutory
cap. He is not entitled to an amount of overtime in
his retirement annuity calculation larger than
what he actually received in overtime pay. The
documentation clearly demonstrates the Appellant
received additional compensation not includable as
part of his base pay for retirement purposes, which
led to the initial overestimation of his annuity by
his employing agency (CBP). The record indicates
the Appellant did receive some overtime pay during
the period at issue. The record further reflects that
creditable overtime pay was included in OPM’s
average salary calculation. As discussed above,
any inconsistencies between the amount of the
Appellant’s gross salary after excluded income is
removed and his salary as calculated through the
agency’s reliance on his deductions are immaterial.
The Appellant was aware of the evidence
submitted by OPM during the pendency of this
matter. Despite OPM’s submissions, the Appellant
failed to provide any additional evidence to rebut
its calculations, its explanation for the apparent
inconsistencies contained on the Appellant’s IRR,
or Mr. Foret’s declaration.
Decision
The agency’s action is AFFIRMED.

FOR THE BOARD:

__________________________
Michele Szary Schroeder
Chief Administrative Judge
APPX14

15

NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
DANIEL A. GROVER,
Petitioner
v.
OFFICE OF PERSONNEL MANAGEMENT,
Respondent
2018-2102
Petition for review of the Merit Systems
Protection Board in No. CH-0831-13-2586-M-1.
Decided: April 24, 2019
NORMAN JACKMAN, Jackman & Roth, LLP,
Lincoln, NH, argued for petitioner.
ANTHONY F. SCHIAVETTI, Commercial
Litigation Branch, Civil Division, United States
Department of Jus- tice, Washington, DC, argued for
respondent. Also represented by JOSEPH H. HUNT,
REGINALD THOMAS BLADES, JR., ROBERT
EDWARD KIRSCHMAN, JR.
Before TARANTO, SCHALL, and CHEN, Circuit

Judges.

APPX15

16
SCHALL, Circuit Judge.
DECISION
Daniel A. Grover is a former customs officer
with the Department of Homeland Security,
Customs and Border Protection. He petitions for
review of the initial decision of the Chief
Administrative Judge (“AJ”) of the Merit Systems
Protection Board (“MSPB” or “Board”) in Grover v.
Office of Personnel Management, No. CH-0831-132586-M-1, 2018 WL 2018309 (M.S.P.B. Apr. 26,
2018) (“Grover II”). J.A. 1. The AJ’s initial decision
became the final decision of the Board on May 31,
2018. In its final decision, the Board determined
that Mr. Grover had failed to establish that the
calculation of his retirement annuity by the Office
of Personnel Management (“OPM”) was erroneous.
Grover II followed our decision vacating a prior
decision of the Board and remanding the case to
the Board for further proceedings. See Grover v.
Office of Pers. Mgmt., 828 F.3d 1378 (Fed. Cir.
2016) (“Grover I”). We affirm.
DISCUSSION
I.
Pursuant to 5 U.S.C. § 8339(a), a retired
federal employee, such as Mr. Grover, is entitled to
an annuity based upon his length of service and his
“average pay.” The statute defines “average pay” as
“the largest annual rate resulting from averaging
an employee’s . . . rates of basic pay in effect over
any 3 consecutive years of creditable service.” 5
U.S.C. § 8331(4). The resulting figure is commonly
APPX16

17
referred to as the “high-three average.” Grover I,
828 F.3d at 1380. At issue in this case is the
calculation of the “basic pay” that, in turn, was
used to calculate Mr. Grover’s “average pay.” As
Grover I explains, 5 U.S.C. § 8331(3)(G) re- quires
the inclusion in “basic pay” of certain authorized
“compensation for overtime inspectional services”
(over- time pay), “not to exceed 50 percent of any
statutory maxi- mum in overtime pay for customs
officers which is in effect for the year involved.” Id.
At the time of his employment, Mr. Grover was
covered by the Customs Officer Pay Reform Act of
1993 (“COPRA”). COPRA was enacted as part of
the Omnibus Budget Reconciliation Act of 1993,
Pub. L. No. 103-66, §§ 13811–13812, 107 Stat. 312,
668–71, which provided for overtime pay for
customs officers like Mr. Grover up to a specified
cap. See 19 U.S.C. § 267. For the years in question,
the cap was $35,000. Thus, if he actually received
it, Mr. Grover was entitled to have up to $17,500 in
over- time pay included in the calculation of the
basic pay for each of the years used in the
calculation of his high-three average pay.
The issue in Grover I was whether, during the
three- year period from August of 2005 to August of
2008, Mr. Grover received $17,500 in overtime pay
in one or more of the years at issue. Mr. Grover
argued that he did. In calculating his high-three
average, however, OPM did not include “anything
close to that amount of overtime pay.” Grover I, 828
F.3d at 1381. As a result, OPM calculated a highthree average significantly lower than what the
high- three average would have been if $17,500 in
APPX17

18
overtime pay had been included in each of the three
years at issue. Id. In vacating the decision of the
Board that had affirmed OPM’s high-three
calculation, Grover I held that further factual
inquiry was required because the information on
Mr. Grover’s Individual Retirement Record was
unclear and contained potentially internally
contradictory information on the amount of
creditable overtime pay that Mr. Grover received
during the years in question. Id. at 1383–84. “[I]t is
reasonable to expect,” we observed, “that pay stubs
could be retrieved that would objectively resolve
the factual issue.” Id. at 1383. We therefore
remanded the case to the Board for further
proceedings.
On remand, the AJ recognized that the only
issue be- fore her was the actual amount of
overtime pay received by Mr. Grover during the
2005–2008 period. Grover II, J.A. 5. The AJ found
that pay statements—considered pay stubs by the
AJ—provided by OPM established that Mr. Grover
received $5,359.44 in overtime pay in 2005;
$9,101.96 in overtime pay in 2006; $3,799.96 in
overtime pay in 2007; and $3,712.51 in overtime
pay in 2008. Id. at 7. The AJ stated that “despite
the Appellant’s long-standing claims, he did not
reach the $17,500 statutory cap in any of the years
at issue, thereby explaining why OPM did not
include the full amount in its determination of the
Appellant’s high-three average salary.” Id.
Accordingly, the AJ affirmed OPM’s decision
relating to Mr. Grover’s retirement annuity. This

APPX18

19
appeal followed. We have jurisdiction pursuant to
28 U.S.C. § 1295(a)(9).
II.
Our scope of review in an appeal from a
decision of the Board is limited. Specifically, we
must affirm the Board’s decision unless we find it
to be arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law; obtained
without procedures required by law, rule, or
regulation having been followed; or unsupported by
substantial evidence. 5 U.S.C. § 7703(c); Miller v.
Fed. Deposit Ins. Corp., 818 F.3d 1361, 1365 (Fed.
Cir. 2016).
III.
In calculating Mr. Grover’s average pay for
purposes of determining his retirement annuity,
OPM included over- time pay in his basic pay, but
it did not include premium pay differential (work
on holidays, on Sundays, and at night) (“premium
pay”) or relocation allowances. Grover II, J.A. 7–8.
The AJ concluded that those exclusions were
consistent with governing regulations. Id. at 8; see
19 C.F.R. § 24.16(b)(14) (explicitly excluding
premium pay differential from retirement benefits
calculations); 5 C.F.R. § 575.209(d) (stating that a
relocation incentive is not part of an employee’s
rate of basic pay for any purpose). Accordingly, the
AJ affirmed OPM’s decision relating to Mr.
Grover’s retirement annuity.
On appeal, Mr. Grover does not challenge the
AJ’s de- termination as to the amount of overtime
pay he received during the 2005–2008 period.
APPX19

20
Neither does he challenge OPM’s calculation of his
retirement annuity based upon that amount of
overtime pay. Instead, he argues that the AJ erred
in affirming OPM’s exclusion of premium pay and
relocation allowances from basic pay in the
calculation of his annuity. In making this
argument, he contends that the two regulations
upon which OPM relied, 19 C.F.R. § 24.16(b)(14)
and 5 C.F.R. § 575.209(d), are unlawful be- cause
they were adopted by OPM contrary to statutory
authority. Pet’r’s Br. 11–14. We do not agree.
Under 5 U.S.C. § 8331(3)(C), premium pay is
included in basic pay if it is paid under 5 U.S.C. §
5545(c)(1). Premium pay under § 5545(c)(1) is paid
to an employee required to remain at a work
station “during longer than ordinary periods of
duty, a substantial part of which consists of
remaining in a standby status rather than
performing work.” Mr. Grover does not argue that
the premium pay that he received was of this
nature. Pet’r’s Br. 11–12. What he does argue is
that he was entitled to have premium pay included
in his basic pay under 5 U.S.C. § 8331(3)(D).
Section 8331(3)(D) provides that basic pay includes,
“with respect to a law enforcement officer, premium
pay under [5 U.S.C. § 5545(c)(2)].” The problem
with this argument is that nothing in the record
supports the proposition that Mr. Grover was a
“law enforcement officer.” See 5 U.S.C. § 8331(20),
(31). Rather, the premium pay that Mr. Grover
received was that paid to customs officers under
COPRA. Significantly, the statute that provides for
overtime and premium pay for customs officers
APPX20

21
states that “[p]remium pay provided for under this
subsection may not be treated as overtime pay or
compensation for any purpose.” 19 U.S.C. §
267(b)(4) (emphasis added). The regulation upon
which OPM relied in this matter, 19 C.F.R. §
24.16(b)(14), is consistent with the statute. See id.
(“Premium pay is not includable for Federal
retirement benefit purposes.”).
As noted above, pursuant to 5 C.F.R. §
575.209(d), OPM also excluded relocation
allowances from basic pay when it calculated Mr.
Grover’s average pay. The statute upon which Mr.
Grover relies on this point, 5 U.S.C. § 5724,
provides authority for the payment of relocation
expenses. It does not, however, provide for the
inclusion of such allowances in basic pay for
purposes of calculating an employee’s retirement
annuity. Under these circumstances, we see no
inconsistency between the regulation and the
statute.
Finally, we have considered Mr. Grover’s
remaining arguments, including the argument that
OPM improperly re- lied on 5 C.F.R. § 844.102
when it calculated his retirement annuity. We find
them to be without merit.
CONCLUSION
For the foregoing reasons, the decision of the
Board in Grover II is affirmed.
AFFIRMED
COSTS
Each party shall bear its own costs.
APPX21

22
AWARD LETTER TO APPELLANT

APPX22

23
APPELLANT’S POSITION DESCRIPTION

Classification & Qualifications
GENERAL SCHEDULE
QUALIFICATION STANDARDS
Customs and Border Protection Series, 1895
Individual Occupational Requirements
Series Definition:
This series covers two-grade interval
administrative positions that supervise, lead, or
perform work that involves detecting and
preventing terrorists and instruments of terror
weapons from entering the United States, and
enforcing and administering laws relating to the
right of persons to enter, reside in, or depart from
the United States, Puerto Rico, Guam, and the U.S.
Virgin Islands and the importation or exportation
of merchandise. Customs and Border Protection
Officers:
interview persons and examine documents
to determine citizenship and immigration
status;
make informed decisions regarding the
admissibility of aliens into the United States
and admitting, holding, or releasing
merchandise;
APPX23

24
obtain information about the description,
characteristics, value, and country of origin
of imported merchandise or agricultural
products, by questioning and eliciting
information from people;
search persons, baggage, cargo, and carriers
for contraband;
monitor, examine, and process cargo
containers at sea ports to facilitate importing
merchandise; and
exercise sound judgment necessary to
apprehend, detain, or arrest persons at the
point of entry who are violating Federal
immigration, customs, agriculture, or other
laws.
Education
Refer to the "Group Coverage Qualification
Standard for Administrative and Management
Positions" for information about substitution of
education.
or
Experience
General Experience for GS-5 Positions: Three years
of general experience is required, one year of which
must have been equivalent to the GS-4 level in the
Federal service. Such experience may have been
gained in the performance of substantive duties
that required the ability to meet and deal with
people and the ability to learn and apply a body of
APPX24

25
facts. Examples of such duties include explaining
administrative requirements and procedures to
others, or screening forms to assure that they are
completed properly in accordance with
requirements. These duties may have been
performed in customer service, claims adjustment,
or information receptionist positions, for example.
They may also have been performed in assistant,
aid, and secretarial/clerical positions. Work
experience involving lead and supervisory duties or
operating a business may also have provided the
required knowledge, skills, and abilities.
Judgments about the acceptability of experience
should not be based solely on the title of the
position held; rather, the actual duties performed
should be evaluated to determine whether or not
the experience is creditable. The performance of
predominantly typing, filing, copying, or messenger
duties, or other purely mechanistic tasks, is not
creditable as general experience, nor is experience
in trades and crafts or equipment operator work.
Specialized Experience for GS-7 Positions: One
year of specialized experience comparable in level
of difficulty and responsibility to the GS-5 level in
the Federal service is required. This is experience
that entailed the performance of substantive duties
in inspections work at borders, seaports, airports,
or other ports of entry and/or work involving
preliminary screening of persons for entry and
immigration status, or compliance/regulatory work.
Inspections experience must have demonstrated
the ability to apply specialized knowledge of the
laws, regulations, and procedures for importing and
APPX25

26
exporting merchandise to and from the United
States and/or law enforcement work at the local,
State or Federal levels, which included dealing
with persons suspected of entering the United
States illegally. Compliance/regulatory work
experience must have demonstrated the ability to
collect, develop, and evaluate facts, evidence, and
pertinent data in assessing compliance with or
violations of laws, rules, or regulations. Qualifying
Experience for Positions above GS-7: Experience
that demonstrated the ability to make rapid,
accurate judgments and decisions with respect to
the application of the regulations, instructions, and
procedures for importing and exporting
merchandise to and from the United States, or
enforcement and administration of laws relating to
the right of persons to enter, reside in, or depart
from the United States, Puerto Rico, Guam, and
the U.S. Virgin Islands. In addition, a minimum of
one year of specialized experience at the next lower
grade level is required.
Personal Qualities:
In addition to other qualifications, candidates must
possess traits and characteristics that are
important to success in customs inspection work.
Among these qualities are alertness, ability to work
effectively in stressful situations, ability in oral
expression, tact, capacity for effective public
relations, and good judgment. Candidates must
give evidence that they are capable of representing
the United States satisfactorily in contacts with
persons from other countries.
APPX26

27
Examination:
Applicants are required to pass a written test and a
structured interview. The purpose of the structured
interview is to observe and evaluate certain
personal characteristics of applicants to determine
whether they possess qualities essential to the
successful performance of the duties of the position.
Other Requirements
Applicants must be willing and able to engage
effectively in contacts with hostile persons, and to
work independently under conditions of high
accountability. A background investigation may
also be employed in assessing applicants'
suitability. Some positions may require the ability
to communicate in a foreign language.
Driver's License
Applicants are required to have, or must obtain
before appointment, an automobile driver's license
currently valid in the State in which they are
domiciled or principally employed.
Medical Requirements
General: The physical demands of the essential job
tasks range from sedentary to arduous and are
classified into the following categories: heavy
lifting/carrying, crawling, kneeling, working in
confined spaces, pushing/pulling, climbing,
bending/stooping, running/walking, sitting,
standing, driving, writing, vision,
comprehension/reading, and communication.
Incumbents are responsible for: lifting items to
APPX27

28
inspect cargo and search for contraband; climbing
ladders and climbing onto cargo; reading,
comparing and reviewing shipping documents and
itineraries to determine cargo and time of arrival of
vessels and airplanes; communicating with
citizens, passengers and exporters to exchange and
gather information and testify at trials; driving
vehicles; running to pursue suspects; making
arrests; using firearms; conducting traffic control;
and, operating computers, radios, and small hand
tools. Environmental: Incumbents perform job
tasks in a variety of environmental conditions.
These conditions include working (1) in hot or cold
outdoor temperatures (i.e., below 32 degrees or
above 90 degrees), (2) at high elevations (i.e., 15
feet or greater above ground level), (3) near moving
vehicles and aircraft, (4) in dusty conditions, (5)
near fumes, (6) in stressful conditions, (7) for
extended and irregular hours, (8) under variable
lighting conditions, and (9) under high noise
conditions. The possibility of exposure to various
types of harmful chemical and/or biological agents
by terrorists is real.
Vision: Applicants must meet the following
requirements:
Near vision - must be at least 20/40 Snellen
binocular (with or without corrective lenses).
Binocular visual acuity must be at least
20/30 (corrected) and 20/100 (uncorrected).
Color perception - must be able to
distinguish primary colors as defined by
color perception Ishihara
APPX28

29
Pseudoisochromatic plate tests. Use of an xchrome lens is not acceptable.
Refractive surgery - individuals who have
undergone refractive surgery (i.e., surgery to
improve distant visual acuity) must meet
approved requirements which include
documentation that they have passed
specific exam and protocol testing that may
be required. Must be LASIK-free from
residual effect three months post-procedure.
For other procedures, must be free from
residual effects one year after surgery.
Hearing: Uncorrected bilateral hearing loss must
not exceed 25 dB for the average of the following
frequencies: 500, 1000, 2000, and 3000 Hz; and
must not exceed 45 dB loss at 4000 and 6000 Hz in
either ear. The difference in hearing levels between
the better ear thresholds and worse ear thresholds
may not exceed 15 dB for the average of 500, 1000,
2000, and 3000 Hz only; and must not exceed 30 dB
loss at 4000 and 6000 Hz only. Use of a hearing aid
is not allowed.
Special Medical Requirements: The duties of this
position are of a strenuous and hazardous nature.
Additionally, the position requires a high degree of
interaction and responsibility to the public.
Therefore, any medical condition resulting from an
injury or disease or any psychiatric condition may
result in disqualification for appointment either: (1)
if the condition(s) would affect the ability of the
individual to perform the essential functions of the
position; or (2) if recurrence of the condition(s)
APPX29

30
cannot be medically ruled out, and the duties of the
position are such that a recurrence would pose a
reasonable probability of substantial harm to the
individual or to others, if the individual were
appointed to the position.
Appointments will be contingent upon a candidate's
passing a pre-employment medical examination
and drug test to ascertain possession of the
physical, emotional and mental requirements for
the position. A direct relationship exists between
specific medical requirements and the condition
and the duties of the position. Any chronic disease
or condition affecting the auditory, cardiovascular,
endocrine and metabolic, gastrointestinal,
genitourinary, integumentary, musculoskeletal,
neurological, psychological, respiratory, and visual
systems that would impair full performance of the
duties of the position is disqualifying. These
medical requirements must be met by individuals
subsequent to appointment and for inservice
placement actions, including reinstatement of
former employees and transfers from positions not
covered by this standard.
Use Of Firearms
For all positions, applicants must, after
appointment, qualify and maintain proficiency with
firearms.

APPX30

31
RELATED INFORMATION
Associated Group Standard
Use the Group Coverage Qualification Standard for
Administrative and Management Positions for this
series in conjunction with the Individual
Occupational Requirements described below.
U.S. OFFICE OF PERSONNEL MANAGEMENT
1900 E Street, NW, Washington, DC 20415
202-606-1800
Federal Relay Service (external link)

APPX31

